No. 20-303
lNTHE

$upteme QCourt of tbe Wniteb $tate~
UNITED STATES OF AMERICA,

v.

Petitioner,

JOSE LUIS VAELLO-MADERO,

Respondent.
On Writ of Certiorari to the
United States Court of Appeals for the First Circuit

BRIEF OF THE AMERICAN CIVIL LIBERTIES
UNION FOUNDATION, ACLU OF PUERTO RICO,
DEMOS, EQUALLY AMERICAN LEGAL DEFENSE
AND EDUCATION FUND, AND THE WASHINGTON
LAWYERS' COMMITTEE FOR CIVIL RIGHTS AND
URBAN AFFAIRS AS AMICI CURIAE IN SUPPORT
OF RESPONDENT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document contains
7,494 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 7, 2021.

c,f~~?f:r:.

Wilson-Epes Printing Co., Inc.

